Supreme Court, U.S.
FILED

No.

JUN 0 9 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Damian Cruz - PETITIONER,
vs.
Glenda I. Lebron Vazquez - RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI TO
Puerto Rico Court of Appeal

PETITION FOR WRIT OF CERTIORARI

By:

Damian Cruz, Petitioner as pro se

PO Box 721037, Orlando FL 32872
(407) 810-6063

RECEIV
jun

1i aw

QUESTIONS PRESENTED
The following questions are presented1. Whether the Puerto Rico Court of Appeal departed so far from the due process in
direct conflict with the Fourteenth Amendment of the Constitution of the United States;
and erred when affirmed refers to the administrative agency Puerto Rico Child Support
Administration a pure federal law question about in personam, subject matter and
interstate territorial jurisdiction that arose from the divorce default judgment in direct
conflict with what this Court has held in Kulko v. Superior Court of Cal., City and County
ofSan Francisco, 436 U.S. 84 (1978) bounded by the Puerto Rico Supreme Court in Shuler
v. Shuler, 157 P.R. Dec. 707 (2002).
2.

Whether the Puerto Rico Court of Appeal erred, abused its discretion and

departed so far from the judicial proceedings when affirmed refers to the administrative
agency Puerto Rico Child Support Administration a pure trial court judicial issue about
errors found in a default judgment entered for the divorce lawsuit in direct conflict with
the Puerto Rico Rules of Civil Procedures, Rule 43.6 which state that a judgment by
default shall not be different in kind of the original demand; and Rule 49.1 which state
that only a trial court can correct errors found in its own judgments and after an appeal
can be corrected only by the Puerto Rico Court of Appeal.

11

LIST OF PARTIES
All parties appears in the caption of the case on the cover page.

LIST OF PROCEEDINGS
In compliance with Rule 14.l(b)(iii) of the Supreme Court of the United States, below is
a list of all proceedings in other courts that are directly related to the case in this Court.
•

Glenda I. Lebron Vazquez vs. Damian Cruz, No. E DI2008-0710, Puerto Rico Trial
Court. Default Judgment entered October 17th, 2008! Order entered July 9th, 2020,' and
Order entered August 28th, 2020.

•

Glenda I. Lebron Vazquez vs. Damian Cruz, No. KLAN202000838, Puerto Rico Court
of Appeal. Order entered October 29th, 2020; and Final Judgment entered February
22nd, 2021.

•

Glenda I. Lebron Vazquez vs. Damian Cruz, No. AC-2021-0050, Puerto Rico Supreme
Court. Order entered March 25th, 2021! and Mandate entered April 13th, 2021.

Ill

TABLE OF CONTENT
OPINIONS BELOW,

1

JURISDICTION,

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE.................................................................

4

REASONS FOR GRANTING THE WRIT..........................

9

CONCLUSION

15
INDEX TO APPENDIX

APPENDIX A'Decision of Puerto Rico Court of Appeal Affirming Trial Court’s
Decision with Verbatim English Translation................................................................

la

APPENDIX B-Decision of Puerto Rico Trial Court Over Mr. Cruz’s Motion Through
Special Appearance with Verbatim English Translation..............................................

17a

APPENDIX C-Decision of Puerto Rico Supreme Court Denying Discretional
Review with Verbatim English Translation....................................................................

20a

APPENDIX D-Order of Puerto Rico Court of Appeal Acknowledging the Appeal
and Deadline for Response with Verbatim English Translation..................................

23a

APPENDIX E-Divorce Default Judgment of Puerto Rico Trial Court with Verbatim
English Translation........................................................................

26a

APPENDIX F Mr. Cruz s Motion Through Special Appearance Requesting the
Puerto Rico Trial Court Correct Errors In Divorce Default Judgment with
Verbatim English Translation..............................................

31a

IV

APPENDIX G-Mr. Cruz’s Motion For Reconsideration of Puerto Rico Trial Court’ s
Decision On Motion Trough Special Appearance with Verbatim English
Translation...............................................................
APPENDIX H-Mr. Cruz’s Petition of Appeal with Verbatim English Translation...

48a
61a

V

TABLE OF AUTHORITIES CITED
CASES
Condado 3 v. Miguel Angel Pereira Suarez, Puerto Rico Court of

PAGE(S)

Appeal Case No. KLAN201800156...................................

12

Ind. Siderurgica v. Thyasen, 114 D.P.R. 548 (1983).................................

6

International Shoe v. State of Washington, 326 U.S. 310 (1945)............

15

Kent v. Dulles, 357 U.S. 116 (1958)............................................................

14

Kulko v. Superior Court of Cal., City and County ofSan Francisco, 436
U.S. 84 (1978).............................................
Pennoyer v. Neff, 95 U.S. 714 (1877).................................................

2, 3, 6, 10, 13, 15
.6

Pena v. Warren, 192 D.P.R. 764, 773 (2004).....................................

13

Pequero v. Hernandez Pellot, 139 D.P.R. 487 (1995).......................

6

Shuler v. Shuler, 157 D.P.R. 707 (2002)............................................

2, 10, 13

SociedadLegal de Gananciales v. Pauneto Rivera, 130 D.P.R. 749
(1992)....................................................

10

STATUTES AND RULES
U.S. Const, amend. V,

15

U.S. Const, amend. XIV,

2

Uniform Interstate Family Support Act § 205

2, 6, 11, 13

28 U.S.C. § 1257.................................................

1

28 U.S.C § 1258..................................................

1

N.Y. Family Court Law § 511...........................

3, 6, 11

Puerto Rico Rules of Civil Procedures Rules 43.6,

4, 11

Puerto Rico Rules of Civil Procedures Rules 49.1

4, 11

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI
I Damian Cruz, the petitioner (hereinafter Mr. Cruz), respectfully prays that this
Court issue a writ of certiorari to review the judgment below.

OPINIONS BELOW
The opinion of the highest Puerto Rico’s court who reviewed the merits of this case
with verbatim English translation appears at Appendix A [Pet.App. la-16a] to the petition
and is unpublished/unreported.
The order of the Puerto Rico Trial Court with verbatim English translation appears
at Appendix B [Pet.App. 17a-19a] to the petition and is unpublished/unreported.

JURISDICTION
The date on which the highest Puerto Rico’s court decided this case was February
22nd of 2021.

A copy of that decision with verbatim English translation appears at

Appendix A [Pet.App. la-16a] to the petition. A timely petition for discretional review was
denied by the Puerto Rico Supreme Court on March 25th of 2021. A copy of the Puerto
Rico Supreme Court’ order denying a discretional review with verbatim English
translation appears at Appendix C [Pet.App. 20a-22a] to the petition.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a) and 28 U.S.C. §
1258.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
•

U.S. Const, amend. XIV, § 1 “All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States! nor shall any
State deprive any person of life, liberty, or property, without due process of law! nor
deny to any person within its jurisdiction the equal protection of laws.”

•

Uniform Interstate Family Support Act (UIFSA) § 205(c) “ If a tribunal of another
state has issued a child-support order pursuant to UIFSA or a law substantially
similar to that Act which modifies a child-support order of a tribunal of Puerto Rico,
tribunals of Puerto Rico shall recognize the continuing, exclusive jurisdiction of the
tribunal of the other state.”

•

Kulko v. Superior Court of Cal., City and County of San Francisco, 436 U.S. 84
(1978) “A defendant to be bound by a judgment against him must have certain
minimum contacts with the forum State such that the maintenance of the suit does
not offend traditional notions of fair play and substantial justice.”

•

Shuler v. Shuler, 157 P.R. Dec. 707 (2002) “It is known that the clause of due
process of law of the United States Constitution limits the States court’s authority
and the power, among these Puerto Rico, to assume jurisdiction and issue orders
against natural and legal persons that do not reside within its territory...Is a norm
well known that the courts should be jealous guardians of the exercise of its
jurisdiction and, above all, for be able to adequately and validly exercise such
judicial authority, shall have jurisdiction over the subject matter and over the

3

person of the litigants...We have been faithful to the norm established since more
than a century by the United States Supreme Court that with respect to a court’s
jurisdiction over a person, each State has jurisdiction and sovereign over the
defendants as long they are within its territorial limits...Is general rules of law that
a State court only can exercise jurisdiction over the persons who reside within the
State territory. The judicial function of the courts as part of the exercise of the
sovereign power of a State generally it is circumscribed to persons who are present
or goods located within the territorial limits of the State...In such way the so-called
principle of territoriality is configured...The doctrine of the minimum contacts was
adopted by this Court...the case Kulko v. California Superior Court had the effect to
limit the possibilities to obtain jurisdiction over the no residents in the cases of
custody, child support or division of community property. In other words, the
minimum contacts doctrine applies in actions that affect the patrimonial right of a
defendant absent who cannot be deprived from its property without the due process
of law.”
•

N.Y. Family Court Law § 511 “Except as otherwise provided, the family court has
exclusive original jurisdiction in proceedings to establish paternity and, in any such
proceedings in which it makes a finding of paternity, to order support and to make
orders of custody or of visitation, as set forth in this article. On its own motion, the
court may at any time in the proceedings also direct the filing of a neglect petition
in accord with the provision of article ten of this act.

In accordance with the

provisions of section one hundred eleven-b of the domestic relations law, the

4

surrogate’s court has original jurisdiction concurrent with the family court to
determine the issues relating to the establishment of paternity.”
•

Puerto Rico Rules of Civil Procedures, Rule 43.6.-Granting of relief

“Every

judgment shall grant the relief to which the party in whose favor it is rendered is
entitle, even if the party has not demanded such relief in his pleading; however, a
judgment by default shall not be different in kind nor exceed the amount prayed for
in the demand for judgment.”
•

Puerto Rico Rules of Civil Procedures, Rule 49.1.-Errors of form “Errors of form in
proceedings, orders or other parts of the record, and those appearing therein
because of oversight or omission, may be corrected by the court at any time, on its
own initiative, or upon the motion of a party, upon prior notice, should it be ordered.
Said errors can be corrected during the handling of an appeal or a writ of certiorari,
before the appeal is docketed to the court of appeal, and subsequently, they shall
only be corrected by permission of the court of appeal.”
STATEMENT OF THE CASE

1. In 1999 were married in New York the respondent Glenda I. Lebron Vazquez
(hereinafter Ms. Lebron) and Mr. Cruz who is a natural born citizen of New York,
both then New York domiciliaries. After the parties consumed their marriage, had
a daughter born in New York which is the State who determined Mr. Cruz’s
paternal filiation and where the family resided together until Ms. Lebron
voluntarily moved to Puerto Rico taking the child without Mr. Cruz’s consent.
2. In 2006 after Mr. Cruz was determined total disable as a result of an accident, a
family court of New York exercised its exclusive subject matter jurisdiction for the

5

child support case no. BQ16329N1 issuing a final judgment ordering that Mr. Cruz
does not have the obligation to pay child support due to his Supplemental Security
Income (SSI) disability status [Pet.App. 38a] and the Social Security Administration
acted in accord of such final order [Pet.App. 39a].
3. In 2008 Ms. Lebron sent the child to spent summer vacations with Mr. Cruz in New
York while at the same time, without told nothing to Mr. Cruz, in June 12th of 2008
filed in Puerto Rico a lawsuit for divorce due to separation case no. EDI-2008-0710
in which falsely alleged that she did not know where Mr. Cruz lived neither has
contact with him.

For the divorce lawsuit, a Puerto Rico Trial Court obtained

jurisdiction via service of process made by publication after noted a default. In
October 17th of 2008 the Puerto Rico Trial Court entered for the divorce case a
default judgment [Pet.App. 26a‘30a] in which ended the marriage but also awarded
in favor of Ms. Lebron an alleged child support debt in the amount of $1,204.66 and
ordered a monthly child support payment of $260.00 recommended by the Child
Support Examiner that since then accumulate balance.

Two month later in

December 2008, the Puerto Rico’s Child Support Administration opened the child
support case no. 0434570; and thereafter reported a child support debt to the
correspondent federal and state programs for denial of passport, credit report
agencies, etc.
4. Public records shows that since 2012 it has been reported on Ms. Lebron’s name
different domiciliary addresses and since 2018 the child is domiciliary of Florida
State.

The child support debt resulted from the divorce default judgment has

6

accumulated balance during the years that Ms. Lebron and the child has not been
domiciliaries of Puerto Rico.
5. After denied a passport due to the Puerto Rico’s Child Support Administration child
support debt reported on Mr. Cruz’s name, Mr. Cruz learned about the divorce
default judgment. Consequently Mr. Cruz without submitted to the jurisdiction of
Puerto Rico for any matter other than the divorce case, filed a motion through
special appearance [Pet.App. 31a-47a] arguing that the divorce default judgment
contain prejudicial errors of form because^
a) The award against Ms. Cruz of child support payment is in direct conflict to what
the United States Supreme Court has held in Pennoyer v, Neff, 95 U.S. 714 (1877)
and Kulko v. Superior Court of Cal, City and County ofSan Francisco, 436 U.S. 84
(1978) bounded by the Puerto Rico Supreme Court in Pequero v. Hernandez Pellot,
139 D.P.R. 487 (1995) and Ind. Siderurgica v. Thyssen, 114 D.P.R. 548 (1983);
b) Puerto Rico has lack of in personam and subject matter jurisdiction for a child
support case because do not exist any minimum contact or any other legal
requirements and the jurisdiction correspond original continue exclusively to New
York for been the State who determined Mr. Cruz’s paternal filiation pursuant N.Y.
Family Court Law § 511 which stated that New York have exclusive jurisdiction to
order child support when has determined the paternal filiation;
c) Pursuant the Federal Act of Congress Uniform Interstate Family Support Act,
Puerto Rico has to recognize the original continue exclusive jurisdiction of the
family court of New York which obtained and exercise its jurisdiction since 2006;

7

d) Puerto Rico has lack of continue in personam jurisdiction over Ms. Lebron and
the child while each of them has not been domiciliaries of Puerto Rico!
e) Pursuant the Puerto Rico Rules of Civil Procedures the default judgment cannot
award child support payments because a child support is a different cause than the
one invoked in the lawsuit for divorce due to separation.
The Trial Court acknowledged and attended Mr. Cruz’s motion. Without Ms.
Lebron file a response or opposition to Mr. Cruz’s motion, the Trial Court on its own
decided that Mr. Cruz shall refer his claim to the Puerto Rico’s Child Support
Administration and based its decision in the Trial Court’s lack of jurisdiction
because Mr. Cruz did not recognize the jurisdiction of the Trial Court [Pet.App. 17a19a].

Mr. Cruz timely filed a motion for reconsideration [Pet.App. 48a-60a] in

which reasserted all arguments previously made and objected the Trial Court’s
decision for been erroneous without merit in law because:
a) The Trial Court already obtained jurisdiction for the divorce case through service
of process via publication after noted a default!
b) The Puerto Rico’s Child Support Administration does not have the legal authority
to correct errors made by the Puerto Rico Trail Court in the divorce case!
c) Puerto Rico has lack of in personam and subject matter jurisdiction to award
against Mr. Cruz a child support payment.
Ms. Lebron neither filed a response or opposition for Mr. Cruz’s motion for
reconsideration. The Trial Court denied Mr. Cruz’s motion for reconsideration.
6. Timely Mr. Cruz without submitted to the jurisdiction of Puerto Rico for any matter
other than the divorce case, filed an appeal [Pet.App. 61a-82a] case no.

8

KLAN202000838 in which reasserted all arguments presented at the Trial Court.
The Puerto Rico Court of Appeal acknowledged Mr. Cruz’s appeal and ordered a
deadline for Ms. Lebron file a response [Pet.App. 23a-25a] but Ms. Lebron did not
file a response or opposition to the appeal reason why Mr. Cruz timely filed a
motion requesting the Court of Appeal enter a summary judgment. The Puerto Rico
Court of Appeal opined that has lack of jurisdiction because Mr. Cruz did not
submitted to the jurisdiction of Puerto Rico, affirmed the Trial Court’s decision and
ordered that Mr. Cruz shall refer his claim to the Puerto Rico’s Child Support
Administration [Pet.App. la-16a].
7. Timely Mr. Cruz without submitted to the jurisdiction of Puerto Rico for any matter
other than the divorce case, filed with the Puerto Rico Supreme Court a petition for
review case no. AC-2021-50 in which reassert all the arguments presented below
and argued that the decision of the Puerto Rico Court of Appeal is erroneous
without merit in law because:
a) Under the Constitution of Puerto Rico all the courts in Puerto Rico work as a
single judicial organization and the Court of Appeal have the same jurisdiction
obtained by the Trial Court in the divorce case!
b) The decision is in direct conflict with what the Puerto Rico Supreme Court and
this Court has held;
c) Mr. Cruz’s allegations on appeal should be deemed as admitted by Ms. Lebron
after a timely request for a summary judgment due to Ms. Lebron’s failure to
response.
The Puerto Rico Supreme Court denied a discretionary review [Pet.App. 20a-22a].

9

REASONS FOR GRANTING THE WRIT
The issue subject to this case is not the support of children since from 2006 that
jurisdiction belongs exclusively to the State of New York who already decided the merits of
the case. Neither the issue is the end of the marriage contract since Mr. Cruz agrees with
it. Among the issues subject to this case, are that the civil action was filed only under the
cause of divorce not child support! that a default judgment cannot be about a different
cause other than the one invoked in the lawsuit! that Puerto Rico have lack of in personam
and subject matter jurisdiction for a child support case because do not exist any minimum
contact or any other legal requirements and because that jurisdiction belong original
continue and exclusively to the State of New York! that the Puerto Rico’s Child Support
Administration is not a venue vested with power to correct errors made by the Puerto Rico
Trial Court’s in the divorce case.
I.

The Puerto Rico Court of Appeal has decided an important question of federal law
about jurisdiction in a way that conflicts with what the Puerto Rico Supreme Court
and this Court has held
The “effects” rule that the Puerto Rico Courts applied not only is intended to reach

wrongful activity outside New York which by law is the legal forum with jurisdiction for
the child support case, but also intended Mr. Cruz engage in minimum contact if he make
an appearance before the Child Support Administration who not only has no legal
authority to correct the Trial Court’s errors made in the divorce case but also have lack of
subject matter jurisdiction. That is to say, if Mr. Cruz present his claim about prejudicial
errors contained in the divorce default judgment, he would make a minimum contact
granting jurisdiction over his person causing serious adverse harm and prejudice to his

10

child support case in New York. Both the Puerto Rico Court of Appeal and Trial Court are
required to follow the mandatory authorities of the Puerto Rico Supreme Court issued in
accordance with the controlling authorities of this Court. In accordance with this Court
decision made in Kulko v. Superior Court of Cal., City and County of San Francisco, 436
U.S. 84 (1978), the Puerto Rico Supreme Court in Shuler v. Shuler, 157 P.R. Dec. 707
(2002) established that to obtain in personam jurisdiction for a child support case the
authority of the States, including Puerto Rico, are limited and a court cannot enter a
judgment against persons who are not within their territorial limits unless the existence
of minimum contacts and/or other applicable legal requirements and/or exemptions. The
appellate court erred when affirmed the trial court’s decision to refer an issue about
prejudicial errors of form made by the Trial Court in the divorce case contrary to the
traditional notion of the fairness of due process of law in direct conflict with the decisions
of the Puerto Rico’s highest court and this Court.
II.

The Puerto Rico Court of Appeal has departure so far from the due process of law
that call for the exercise of this Court supervisory power
The Puerto Rico Supreme Court denial of discretional review do not conclude there is

not errors in the lower courts’ decisions nor serve as an adjudication on the merits of the
case, rather is the exercise of their discretion for do not intervene in the controversy in
accordance with the Puerto Rico Supreme Court opinion made in Sociedad Legal de
Gananciales v. Pauneto Rivera, 130 D.P.R. 749 (1992) (citation omitted). The Puerto Rico
Supreme Court denial of discretional review calls for the exercise of this Court’s
supervisory power to assure the Puerto Rico lower courts’ decisions be made in accordance
with the decisions of the Puerto Rico Supreme Court and this Court about the Due Process

11

Clause of the Fourteen Amendment of the United States Constitution. The absence of the
Puerto Rico Supreme Court supervisory power resulted in the need of this Court
intervention after the Puerto Rico lower courts’ decisions departed so far from the due
process of law against the judicial proceedings and contrary to the Puerto Rico Rules of
Civil Procedures Rule 43.6 which requires that a judgment entered in default shall not be
different in kind of the nature of the cause invoked in the original lawsuit; and Rule 49.1
which state that only the Trial Court is vested with legal authority to correct errors found
in its own judgments and if an appeal is filed such authority correspond solely to the Court
of Appeal. This Court’s is the only forum with power to protect the interest of the United
States Constitution from the possible Puerto Rico lower court’s Home-State-Bias and
abuse of discretion after made a decision in direct conflict with a the Federal Act of
Congress Uniform Interstate Family Support Act (UIFSA) § 205(c) which state that Puerto
Rico shall recognize the continuing, exclusive jurisdiction of the New York over the child
support case granted by its State law under the N.Y. Family Court Law § 511 which state
that in proceedings in which New York makes a finding of paternity New York family
court has exclusive original jurisdiction to enter an order for child support.
The Puerto Rico Court of Appeal decision denied equal protection of laws and
constitute a abuse of discretion because applied a double standard when the same
reporting judge who affirmed the Trial Court’s decision in other case opined that a party
who has been sue in default will not waive any defense about lack of jurisdiction, do not
admitted incorrect factual assertions and legal conclusions, has the right to object the
amount of any alleged debt and object the default judgment, that an amount of debt
should be sustained by evidence. See Condado 3 v. Miguel Angel Pereira Suarez, Case No.

12

KLAN201800156 (2018) (citation omitted). The legal interpretation of the Puerto Rico
Court of Appeal about lack of jurisdiction for the issues presented on appeal is erroneous
without merit in law because the Court of Appeal has the same jurisdiction that the Trial
Court exercised when divorced the parties.
In this case the due process of law is vitally important because without a judicial
proceeding specific for a child support case, will be impossible for a forum to review the
merits and Mr. Cruz would be deprived from a discovery process to: find if during the past
10 years Ms. Lebron has gave permission to a non-parent to claim a federal child tax
credit for the child which in that instant Ms. Lebron has not right to receive past-due child
support payments directly; review Ms. Lebron’s income taxes records for the past 10 years
either filed alone or join with a domestic partner/husband; find if during the past 10 years
Ms. Lebron received a federal child tax credit for the child; find if during the past 10 years
Ms. Lebron or other non-parent person has received simultaneous public benefits from
different States on behalf the child; review all the applications Ms. Lebron filed after the
divorce with the Social Security Administration requesting auxiliary benefits on her
behalf as Mr. Cruz’s wife and on behalf of the child; find if Ms. Lebron has requested or
received any support payment from the child’s paternal grandmother as provide the
Puerto Rico Child Support Administration. All these, are some of the main factors that
sustain why the due process of law is so vital in this case and how a child support case far
reach high public interest such federal tax laws, public benefits managed with federal and
states funds and subsidiary child support responsibility over grandparents. This way has
been showed the abuse of discretion of the Puerto Rico lower courts and the adverse
implications of their erroneous decisions.

13

III.

The Puerto Rico Court of Appeal decision caused serious harm to Mr. Cruz and
poses a far reaching prejudice against the public interest that need this Court
decide the issues presented
The Puerto Rico Supreme Court has firmly established in Pena v. Warren, 162 D.P.R.

764, 773 (2004) (citation omitted) that child support is a matter of high public interest. In
Kulko v. Superior Court of Cal., City and County ofSan Francisco, 436 U.S. 84 (1978) this
Court already has demonstrated how similar issues about the due process of law granted
by the Fourteen Amendment of the United State Constitution make this case eligible for
this Court supervisory power intervention. For more than 75 years the effect rule of the
Kulko case serve as a controlling authority after established that in order to enter a
judgment against a defendant “must have certain minimum contacts with the forum State
such that the maintenance of the suit does not offend traditional notions of fair play and
substantial justice.”

In Shuler v. Shuler, 157 P.R. Dec. 707 (2002) the Puerto Rico

Supreme Court reaffirm that a jurisdiction issue between citizen of different territories
within the States is an issue involving the United States Constitution and explain how
this Court’s controlling authorities has been applied among Puerto Rico’s judicial system.
Other significant issue about federal law with high public interest is the jeopardy of the
Act of Congress Uniform Interstate Family Support Act not being uniform applied through
our country. Those issues call for the intervention of this Court to protect the integrity of
the power of our national judiciary system. The Puerto Rico lower courts’ decisions pose a
far reaching prejudice not only against Mr. Cruz’s rights under the United States
Constitution but also against Mr. Cruz’s rights under federal and N.Y. State laws causing
serious prejudice to the public interest because of the so many other cases that has been

14

decided in accordance with this Court controlling authorities. Also poses the danger to set
a precedent that would result in miscarried of justice to any other person similar situated
who may suffer the same harm and injustice! and a precedent that would confer for the
States to made similar decisions contrary to the decisions of this Court. For this last
argument we consider that the territorial status of Puerto Rico is below than the status of
a State, meaning that if a territory is allowed to act not in accord with our national
judiciary system would have the effects rule for a State may act the same way.
Travel is part of the liberty of which a United States citizen cannot be deprive
without due process of law in accordance with what this Court has held in Kent v. Dulles,
357 U.S. 116 (1958) (citation omitted). Mr. Cruz has suffered serious harm and adverse
consequences when was deprived from his liberty after been denied a passport as a result
of the illegal child support debt reported by the Puerto Rico Child Support Administration
to the correspondent federal and state programs for denial a passport. Puerto Rico lower
courts’ decisions not only violated Mr. Cruz’s right to get a passport but also put in danger
his freedom with a threat of jail because of the illegal child support debt accumulated for
more than a decade with an outstanding balance until this date. Also threat his property
because a lien is enforceable to satisfy the illegal child support debt. Other Mr. Cruz’s
suffered damages resulted after the Puerto Rico Child Support Administration reported
the illegal child support debt to the consumer credit reporting agencies negatively
affecting his personal credit score resulting in high interest rate, limited housing
opportunities, etc. But above all is the harm caused to Mr. Cruz’s New York child support
case with exclusive jurisdiction exercised years before to the divorce lawsuit and over
which already has entered a final order on the merits in favor of Mr. Cruz. Puerto Rico

15

Trial Court’s order entered in default establishing a child support payment not only is
against the basic principle of substantial justice and fairness of the proceedings but
resulted in a second ruling over the same matter which applied the same principle
involved in the Double Jeopardy Clause of the Fifth Amendment of the United States
Constitution which state that no person shall be subject for the same offense to be twice
put in jeopardy of life or limb.
IV.

This case provide the opportunity for this Court clarify mandatory versus
persuasive authority applicable as long-arm jurisdiction of the minimum contacts
doctrine abide by the Puerto Rico Supreme Court
The doctrine of minimum contacts were established by this Court in International

Shoe v. State of Washington, 326 U.S. 310 (1945) (citation omitted) and reaffirmed for
child support cases in Kulko v. Superior Court of Cal., City and County of San Francisco,
436 U.S. 84 (1978). This case may serve as a vehicle to clarify how the minimum contact
doctrine established by this Court is applicable as a long-arm jurisdiction to the territory
of Puerto Rico. Also this case provide the opportunity for this Court reaffirm the Puerto
Rico Supreme Court’s decisions that are bound to the controlling authorities of this Court
which are mandatory not persuasive authorities for the Puerto Rico lower courts.
CONCLUSION
For all the above, in the furtherance of justice this petition for a writ of certiorari
should be granted.
Respectfully submitted on this date of June 11th of 2021 by Damian Cruz, the
petitioner as pro se.
Signature:
DamianiCfuz, Petitioner as pro se

